COCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a l B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

IN RE HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, ET AL.,
Petitioners,

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF MANDAMUS in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

LAWRENCE J. JOSEPH
Counsel of Record

1250 Connecticut Ave. NW
Suite 700-1A.

Washington, DC 20036

(202) 355-9452

j@larryjoseph.com

Counsel for Petitioners

Subscribed and sworn to before me this 19th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE :
General Notary .
State of Nebraska . Le ,

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38511
SERVICE LIST

Susan Y. Soong

Clerk of the Court

US. District Court, Northern District of California
450 Golden Gate Avenue

San Francisco, CA 94102-3489

Email: Susan_Soong@cand.uscourts.gov
Telephone: 415-522-2000

Jason Robert Flanders
Anthony M. Barnes

Aqua Terra Aeris Law Group
409 45th Street

Oakland, CA 94609

Email: jrf@atalawgroup.com
Telephone: 916-202-3018
